No. 20-88

In the Supreme Court of the United States
HZNP Finance Limited,
Horizon Therapeutics USA, Inc.,

Petitioners,
v.
Actavis Laboratories UT, Inc.,

Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I declare that the Brief in
Opposition for Respondent Actavis Laboratories UT, Inc. contains 5,406 words,
excluding parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 30th day of September 2020.
/s/ J.C. Rozendaal
J.C. ROZENDAAL
STERNE, KESSLER, GOLDSTEIN & FOX, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Respondent
Actavis Laboratories UT, Inc.

